The State of Delaware’s Compliance with No Child 

Left Behind Public School Choice and Supplemental 

          Educational Services Provisions



                          FINAL AUDIT REPORT





                  Control Number ED-OIG/A03F0002

                           November 2005





Our mission is to promote the efficiency,   U.S. Department of Education
effectiveness, and integrity of the         Office of Inspector General
Department’s programs and operations.       Philadelphia, Pennsylvania
                                       NOTICE




Statements that management practices need improvement, as well as other conclusions
and recommendations in this report, represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by appropriate
Department of Education officials.

In accordance with the Freedom of Information Act (4 U.S.C. §552), reports issued by
the Office of Inspector General are available, if requested; to members of the press and
general public to the extent information contained therein is not subject to exemptions in
the Act.
                                TABLE OF C ONTENTS



                                                                                Page



Executive Summary ……………………………………………………………………………1



Background ……………………………………………………………………………………..2




Audit Results ……………………………………………………………………………………3



Finding 1     – DDE Should Develop a Process to Adequately Monitor LEAs for
               Compliance with the ESEA Public School Choice and SES Provisions …….3



Finding 2 	   – LEAs Did Not Comply With School Choice Requirements ………………..4




Finding 3 	   – Two LEAs Did Not Comply With Supplemental Educational Service 

              Requirements ……………………………………………………………….…..8




Finding 4 	   – Strengthening of Internal Controls Relative to DDE’s USCO Policy for
              Persistently Dangerous Schools Determinations is Needed ………..…….…10



Objectives, Scope and Methodology ………………………………………………………….13



Statement on Internal Controls …..…………………………………………………………..14


Appendix A-DDE PDS Offenses………...…..………………………..……………………….15


Appendix B-DDE Comments on the Draft Report…..…………..………………..…...…….16

The State of Delaware’s Compliance with NCLB
Public School Choice and SES Provisions                           Control Number ED -OIG/A03F0002



                                      EXECUTIVE SUMMARY


The objectives of our audit were to determine if (1) the Delaware Department of Education
(DDE) had an adequate process in place to review local educational agency (LEA) and school
compliance with adequate yearly progress (AYP), public school choice, including the Unsafe
School Choice Option (USCO), and supplemental educational services (SES) provisions of the
Elementary and Secondary Education Act (ESEA), as amended by the No Child Left Behind Act
(NCLB) of 2001 (P.L.107-110) and applicable regulations; (2) LEAs provided to students
attending schools identified for improvement (failed AYP two consecutive years) the option of
attending another public school; and (3) LEAs provided SES to students attending schools that
failed to make AYP while identified for improvement, corrective action or restructuring during
the 2003-2004 school year. Our audit covered implementation of the above objectives during the
2004-2005 school year, as this was the period when the 2003-2004 AYP determinations would
be in effect.

To accomplish our objectives, we reviewed compliance with AYP, public school choice,
including the USCO, and SES provisions of ESEA and the implementing regulations. In
addition, we reviewed documents from three judgmentally selected LEAs (Christina, Indian
River and Marion T. Academy) with schools identified fo r improvement, corrective action or
restructuring, and the documentation related to the LEAs’ compliance with the public school
choice, including the USCO, and SES provisions of ESEA and the implementing regulations.

Our audit disclosed that DDE adequately reviewed LEA and school compliance with AYP.
However, DDE did not have a process in place to adequately monitor LEA and school
compliance with the school choice, including the USCO, and SES provisions of ESEA. Our
audit also disclosed that none of the three LEAs fully complied with the public school choice,
including the USCO, and SES provisions of the ESEA and the implementing regulations.

We recommend that DDE document and implement internal controls pertaining to the process
for reviewing LEA and school compliance with school choice, including the USCO, and SES
provisions. Specifically, regarding school choice, DDE should address the deficiencies related to
parental notification letters, the offering of the school choice options and the budgeting of
required funds. Regarding SES, DDE should address the deficiencies related to the parental
notification letters, and the availability of supplemental services and service providers. In
addition, DDE should address the training of personnel, incident reporting, and the calculations
relating to the persistently dangerous schools determination for the USCO.

In its response to our draft report, DDE concurred with our findings and recommendations,
except for finding number 4. In its response, DDE discussed the corrective actions it has taken
or plans to take to address our recommendations. Although DDE disagreed with finding number
4, it stated that the recommendations involve processes that are currently under revision and the
recommendations will prove to be helpful as it refines its USCO reporting process and
strengthens internal controls. DDE’s comments are summarized after each finding and the
complete response is included as Appendix B to this report.




                                                1
The State of Delaware’s Compliance with NCLB
Public School Choice and SES Provisions                                         Control Number ED -OIG/A03-F0002



                                                 B ACKGROUND
Title I, Part A of the ESEA, as amended by the No Child Left Behind Act of 2001 (P.L.107-110),
significantly increases the choices available to the parents of students attending Title I schools
that fail to meet state standards, including immediate relief, beginning with the 2002-2003 school
year, for students in schools that were previously identified for improvement or corrective action
under the 1994 reauthorization of the ESEA. LEAs must offer all students attending schools
identified for improvement, corrective action, or restructuring the choice to attend a public
school not identified for improvement, 1 corrective action, or restructuring, which may include a
public charter school within the LEA. The LEA must provide students transportation to the new
school.

A school must offer SES to low-income students if it fails to make AYP after being identified for
improvement, or while in corrective action, or restructuring. SES providers must be approved by
the state and offer services tailored to help participating students meet challenging state
academic standards.

ESEA establishes joint funding for school choice related transportation and SES. Unless a lesser
amount is needed to meet demand for school choice related transportation and to satisfy all
requests for SES, an LEA must spend up to an amount equal to 20 percent of its Title I, Part A
allocation, before any reservations, on: 1) school choice related transportation; 2) SES; or 3) a
combination of 1 and 2.

Section 1116(c)(1)(A) of the ESEA requires states to review LEAs for compliance with the
public school choice and SES provisions of the ESEA. Section 1116 (b) and (e) of the ESEA
and 34 C.F.R. § 200.36 and 200.37 outline requirements for school choice and SES parental
notification letters. For school choice parental notification, Section 1116 (b)(6) of the ESEA and
34 C.F.R. § 200.37 require that an LEA promptly provide parents of each student enrolled in a
school identified for improvement with notice that includes, among other things, (1) an
explanation of how the school compares in terms of academic achievement to other schools
served by the LEA and state educational agency; (2) an explanation of the parents’ option to
transfer their child to another public school, which may include charter schools, or obtain SES;
(3) identification of the schools to which a child may transfer and information on the academic
achievement of those schools; and (4) notice that the LEA will provide or pay for transportation
for the student to another public school. Section 1116(b)(1)(E) of the ESEA requires an LEA to
give priority to the lowest achieving children from low- income families if funds are not
sufficient to serve all eligible families.

For SES parental notification, Section 1116(e)(2)(A) of the ESEA and 34 C.F.R. § 200.37
require the LEA to provide, at a minimum, annual notice to parents of (1) the availability of
services and how parents of eligible children can obtain the services for their child; (2) the
identity of approved providers within or near the LEA; and (3) a brief description of the services,
qualifications, and demonstrated effectiveness of each provider. According to 34 C.F.R. §
200.36(c), the state, LEA, or school is required to provide information to parents directly,
through such means as regular mail. Section 1116 (e)(2)(C) of the ESEA requires the LEA to

1
    A school is identified for improvement after failing AYP for two consecutive years.

                                                           2
The State of Delaware’s Compliance with NCLB
Public School Choice and SES Provisions                                       Control Number ED -OIG/A03-F0002


apply fair and equitable procedures for serving students if the number of spaces at approved
providers is not sufficient to serve all eligible students. Section 1116 (b)(10)(C) of the ESEA
requires the LEA to give priority to the lowest achieving eligible students if funds are not
sufficient to provide SES to all eligible students.

The U.S. Department of Education (ED) allocated $30,708,190 in Title I funds to DDE for the
2004-2005 school year. DDE allocated Title I funds during this period to 30 of its 32 LEAs.

DDE administered the Delaware Statewide Testing Program (DSTP) in the spring of 2004, and
established an AYP performance target of 57 percent for English Language Arts (ELA), and 33
percent for Math. For the 2004-2005 school year, DDE provided the final AYP determinations
to the LEAs by August 6, 2004.

Based on the results of the DSTP, 13 schools in 7 LEAs were identified as needing
improvement—6 schools were in the second year of improvement, and 7 schools were in the
third year of improvement. For the 3 LEAs we reviewed, 11 of 1,572 (.70 percent) eligible
students at the five choice schools we reviewed exercised their right to school choice, and 6 of
708 (.85 percent) eligible students enrolled in SES at the two schools that we reviewed that were
required to provide SES. School year 2004-2005 was the first full year of DDE’s SES
implementation.

According to the Unsafe School Choice Option, Title IX, Part E, Subpart 2, Section 9532, a
student is allowed to transfer from one school to another school when the school the student is
attending is determined to be “persistently dangerous,” and/or the student becomes the victim of
a violent crime at that school. DDE determined that a persistently dangerous school (PDS) was
one that had five qualified incidents 2 per 100 students, for a period of three consecutive years.
No DDE schools were identified as PDS, and no student was identified as a victim of a violent
crime during the audit period.



                                                  A UDIT R ESULTS
We concluded that: (1) DDE adequately reviewed LEA and school compliance with AYP, (2)
DDE did not have a process in place to adequately monitor LEA and school compliance with
public school choice, including the USCO, and SES provisions, (3) the LEAs did not fully
provide to students the option of attending another public school, (4) the LEAs failed to provide
SES to students, and (5) both DDE and the LEAs need to strengthen their internal controls
relative to DDE’s USCO persistently dangerous schools determinations.


Finding 1 –	 DDE Should Develop a Process to Adequately Monitor LEA Compliance with
             the ESEA Public School Choice and SES Provisions

DDE did not adequately monitor LEA compliance with ESEA’s public school choice and SES
provisions. Although DDE provided guidance to LEAs, it did not have a process, including

2
    A list of qualified incidents is included as an Appendix to the report.

                                                              3
The State of Delaware’s Compliance with NCLB
Public School Choice and SES Provisions                                  Control Number ED -OIG/A03-F0002


documented policies and procedures, to monitor compliance. We found that DDE did not
review LEAs’ school choice or SES letters for content to ensure each letter met federal
regulations and guidelines . Section 1116(c)(1)(A) of the ESEA requires a state to annually
review the progress of each LEA receiving Title I funds to determine if each LEA is carrying out
its responsibilities under Section 1116 of the ESEA. 3 DDE left the implementation of the
choice and SES provisions to the LEAs . As a result of DDE’s failure to adequately monitor LEA
compliance, all three LEAs we reviewed did not comply fully with the parental notification
requirements, and did not accurately determine student enrollment. A DDE official informed us
that DDE planned to review the school choice and SES notification letters in the future.

In addition, DDE did not determine if all LEAs offered the school choice option to students who
attended a school identified in need of improvement. One LEA, Marion T. Academy Charter
School (MTA), eliminated the school choice option for some students. MTA also failed to
budget funds to meet the federal spending requirement for school choice transportation.

If DDE had a process in place to adequately monitor LEA compliance as required by the ESEA,
the associated risks of the issues discussed in Findings No. 2 and 3 could have been mitigated.

Recommendations:

1.1	    We recommend that the Assistant Secretary for Ele mentary and Secondary Education, in
        collaboration with the Assistant Deputy Secretary for Innovation and Improvement
        require DDE to develop, document, and implement a process to monitor LEA compliance
        with public school choice and SES provisions, including ensuring that LEAs are spending
        the requisite amount for school choice transportation costs and SES.

DDE Comments:
DDE concurred with our finding and recommendation. DDE stated that it will expand its Quality
Review Process to include an annual review of all LEAs that must implement NCLB provisions,
and provide them with timely feedback. DDE also provided information on the corrective
actions it plans to take.


Finding 2 - LEAs Did Not Comply with School Choice Requirements

The school choice parental notification letters sent by all of the LEAs reviewed failed to include
all of the information required by ESEA, and based on the enrollment data provided by each
LEA, also failed to reach all students enrolled on the first day of school. In addition, the charter
school LEA (MTA) eliminated some school choice options for students, and also failed to
budget the minimum amount of funds for school choice transportation costs.

School Choice Notification Letter Deficiencies

As indicated in the table belo w, the school choice parental notification letters for two (Christina
School District (CSD) and MTA) of the three LEAs we reviewed did not include all of the

3
  LEA responsibilities under Section 1116 of ESEA are discussed in detail in the BACKGROUND section of this
report.

                                                      4
The State of Delaware’s Compliance with NCLB
Public School Choice and SES Provisions                                        Control Number ED -OIG/A03-F0002


minimum required information as required by Section 1116 (b)(6) of the ESEA and 34 Code of
Federal Regulations (C.F.R.) § 200.37. 4

Table 1

        School Choice parental                Christina School        Indian River             Marion T.
    notification letter requirements:             District           School District           Academy
                                               YES         NO         YES        NO         YES         NO
  1) Identify the reasons why the
 specific schools were rated as in                             v        v                     v
       need of improvement
  2) Identify each public school,
    which may include charter                                  v                                          v
schools, that the parent can select
   3) Include information on the
   academic achievement of the                                                  N/A 5
schools that the parent may select                             v                                          v
  and a comparison to the child's
           current school
4) State that the LEA will provide
                                                               v                                          v
     or pay for transportation
    5) Explain what the specific
     school, LEA or Delaware
Department of Education is doing                    v*         v                  v
   to help the school address the
        achievement problem
* CSD’s letter only included information on the continuation of past instructional efforts. The
letter did not address any other efforts or new initiatives to address the achievement issues.

The two LEAs were unaware of the information required to be included in the school choice
notification letters, and because DDE did not monitor the LEA’s progress, both letters were
deficient. As a result, parents could not make a fully informed decision whether to transfer their
children from a school identified for improvement.

During our exit conference with CSD officials, they requested guidance in making their school
choice and SES letters fully compliant. To fulfill the request the audit team contacted U.S.
Department of Education (ED) program officials and made arrangements for ED to work with
DDE and LEA officials. DDE officials informed us that they plan to incorporate a review of the
letters as part of their annual quality control review process.




4
    The first column of Table 1 identifies the minimum required information per the listed criteria.

5
    Both middle schools failed AYP for two consecutive years and no other school choice options were available. 


                                                           5
The State of Delaware’s Compliance with NCLB
Public School Choice and SES Provisions                                        Control Number ED -OIG/A03-F0002


Parents Were Not Notified of School Improvement Status

We determined that parents of 505 students, enrolled on or before the first day of school from all
three LEAs reviewed, did not receive school choice letters notifying them of their child’s
school’s improvement status. According to ESEA Section 1116(b)(1)(E)(i), parents of students
enrolled at schools identified for improvement must be notified of the school choice option prior
to the first day of the school year.

All three LEAs utilized student enrollment data generated prior to the first day of school, and
then failed to implement a procedure, such as providing the parents with written information at
enrollment, to account for students enrolling after the enrollment data were generated, up until
the first day of school. For example, CSD used its enrollment data as of August 14, 2004, and its
first day of school was August 30, 2004. Any parent whose child enrolled after August 14, 2004,
up until August 30, 2004, did not receive any notification of the school’s improvement status.

Consequently, parents of 137 students at MTA, 113 students at CSD (56 students at Wilson
Elementary School and 57 students at Pulaski Intermediate School) , and 255 students at Indian
River School District (IRSD) [91 students at Selbyville Middle School and 164 students at
Sussex Central Middle School (SCMS)] were not properly notified. Table 2 below provides the
dates each LEA generated its data and the first day of school for its students.

Table 2
             LEA                       Enrollment Data Generation Date               First Day of School
Christina School District                      August 14, 2004                        August 30, 2004
Marion T. Academy                                May 1, 2004                          August 23, 2004
Indian River School District                 August 12 &13, 2004                     September 7, 2004

MTA Students Were Not Offered the School Choice Option

MTA restricted the ESEA school choice option of attending a school not identified for
improvement for parents of 102 6 students originally assigned to a “feeder school” 7 also
identified for improvement. MTA failed to attempt to enter into a cooperative agreement with
another LEA that would have allowed fo r parents of students with a home "feeder" school
identified for improvement to select the school choice option and transfer to a school not
identified for improvement. Section 1116 (b)(1)(E)(i) of the ESEA requires the LEA to provide
all students enrolled in the school with the option to transfer to another public school served by
the local educational agency, which may include a public charter school, that has not been
identified for school improvement. In the case of MTA, a charter school that is also considered
its own LEA, Section 1116 (b)(11) of the ESEA states that if all public schools served by the
local educational agency to which a child may transfer are identified for school improvement,
corrective action or restructuring, the agency shall, to the extent practicable, establish a
cooperative agreement with other local educational agencies in the area for a transfer. MTA
failed to consider the ESEA requirement allowing a student to attend a school, even one located
within another LEA, not identified for improvement. In doing so, MTA restricted the school
6
  These 102 students are exclusive of the aforementioned 137 students that did not receive parental notification 

letters.

7
  The term "feeder school" is defined as a school from which students are drawn to attend another school, usually 

located in the same geographic area. 


                                                          6
The State of Delaware’s Compliance with NCLB
Public School Choice and SES Provisions                            Control Number ED -OIG/A03-F0002


choice option resulting in the parents of the 102 students not being offered the school choice
option to transfer to another school.

MTA Did Not Budget Funds for School Choice Transportation

MTA did not budget funds to meet the federal spending requirement for school choice
transportation costs. ESEA Section 1116(b)(10)(A) requires that unless a lesser amount is
needed to comply with school choice transportation and to satisfy all requests for supplemental
educational services, a local education agency shall spend an amount equal to 20 percent of its
Title I allocation. MTA believed that the only school choice for a parent was the "home" feeder
school and since transportation was already established by the home school district, MTA did not
budget funds for ESEA school choice transportation. As a result, MTA would not have had
adequate funding to accommodate the transportation costs associated with the school choice
option if students had been offered and had exercised the school choice option.

Recommendations:

We recommend that the Assistant Secretary for Elementary and Secondary Education, in
collaboration with the Assistant Deputy Secretary for Innovation and Improvement, require DDE
to:

2.1	    Develop a process to ensure that: 1) LEA school choice notification letters are updated to
        include all of the required information listed in Table 1, and 2) all LEAs attempt to
        provide, to the extent possible, a school choice option of a school not identified for
        improvement.

2.2	    Require all LEAs to implement a plan to notify those students enrolling after the initial
        notification letter distribution and before the first day of school.

DDE Comments:
DDE concurred with our finding and recommendations. In its response DDE informed us of the
corrective actions it plans to take. DDE provided a sample choice letter to LEAs, which it also
posted on its website. DDE has also worked with MTA to ensure it complies with the choice
regulations, and has provided technical assistance in developing and administering a
Memorandum of Understanding with its neighboring LEAs. In addition, DDE is developing
guidance and training to help schools implement a procedure to address students enrolling after
the initial notification letter distribution and the first day of school.

OIG Comments:
We reviewed the sample school choice letter and found that it is not fully compliant wit h NCLB
requirements. The school choice letter does not include a place for the school to: 1) identify each
public school that the parent can select to transfer their child to; and 2) provide information on
the academic achievement of the schools that the parent may select and a comparison to the
child’s current school. We recommend that DDE revise the sample letter to include this
information.




                                                 7
The State of Delaware’s Compliance with NCLB
Public School Choice and SES Provisions                           Control Number ED -OIG/A03-F0002



Finding 3 –Two LEAs Did Not Comply With Supplemental Educational Service
            Requirements

The SES parental notification letters sent by CSD and IRSD failed to include all of the
information required by the ESEA. In addition, IRSD had procedural failures contributing to the
insufficient implementation of SES at one school, as it made available to parents only two of the
nine state-approved SES providers. Furthermore, IRSD failed to ensure that the parents of
students at one school (SCMS) were notified of the SES available to their children.

SES Notification Letter Deficiencies

The SES option parental notification letters for two of the LEAs we reviewed did not fully
comply with Section 1116(e)(2)(A) of the ESEA, 34 C.F.R. § 200.36 and 200.37, which state
that the letters must:

    1.	 Identify each approved service provider within the LEA, in its general geographic 

        location, or accessible through technology such as distance learning;

    2.	 Describe the services, qualifications and evidence of effectiveness for each provider;
    3.	 Describe the procedures and timelines that parents must follow in selecting a provider to
        serve their child; and
    4.	 Be easily understandable; in a uniform format, including alternate formats, upon request;
        and, to the extent practicable, in a language the parents can understand.

Although CSD and IRSD distributed the notificatio n letters to parents timely, both LEAs’
letters did not contain any of the required information listed above. Both CSD and IRSD were
unaware of the required SES notification letter content. In addition, DDE did not monitor the
LEAs’ compliance with the regulations, as required by the law. As a result, both of the letters
were deficient; and parents could not make a fully informed decision regarding the SES
providers.

CSD Did Not Follow Its SES Provider Notification Procedure

CSD did not notify a state-approved SES provider that parents of two students had selected it in
September 2004 as an SES provider. CSD policy indicated that an SES provider was to be
immediately notified of its selection by a parent.

The district official who was directly responsible for notifying the selected SES provider did not
know why the SES provider had not been contacted. CSD’s decision not to notify the provider
ultimately resulted in the SES services being provided by the LEA, as opposed to an outside
entity.

SCMS Parents Were Not Notified Of All SES Providers

Parents of SCMS students were not given a comprehensive list of approved, applicable SES
providers. According to 34 C.F.R. § 200.37(b)(5)(ii)(A), IRSD was required to provide parents
the identity of all approved SES providers within the local educational agency or whose services
are reasonably available in neighboring local educational agencies or through distance learning.

                                                 8
The State of Delaware’s Compliance with NCLB
Public School Choice and SES Provisions                           Control Number ED -OIG/A03-F0002



An IRSD official decided to limit the SES provider options to only those providers she felt could
offer services meeting the students’ needs . As a result, parents were unable to select from the
comprehensive list of approved, applicable SES providers, as only two choices were offered .

SCMS SES Provider Mailing

IRSD was not given the opportunity to and did not review the SES application package sent to
parents of eligible students at SCMS. SCMS mailed the application package to parents on behalf
of an SES provider. Section 1116(e)(2)(A) of the ESEA and 34 C.F.R. § 200.36(b) states that
the LEA is responsible for notifying the parents about the availability of services. The
information about the services should be provided directly to the parents so that there is
sufficient time to allow them to select providers. The provider mailing did not allow the parents
sufficient time to select SES, as the indicated deadline date on the SES application form had
passed by the time the parents received it. In addition, the application form required the parents
to contact the SES provider if services were desired from another provider, as opposed to
appropriately contacting the school directly. The parent should not be contacting a provider if
services are desired from another provider. This information may have been confusing and not
easily understandable to the parents. Section 1116(e)(2)(A) of the ESEA, also states that the SES
notification to parents must be easily understandable. IRSD did not ensure that the parents of
eligible students at SCMS were notified of the SES available to their children. As a result
parents were not accurately informed of the SES application process and timeline, possibly
leading to a lack of participation.

Recommendations:

We recommend that the Assistant Secretary for Elementary and Secondary Education, in
collaboration with the Assistant Deputy Secretary for Innovation and Improvement, require DDE
to:

3.1	    Develop a process to ensure that the LEAs’ SES notification letters are updated to include
        all of the required information.

3.2	    Monitor the LEAs to ensure that parents are provided a list of all approved SES providers
        and that parental choices of SES providers are granted.

3.3	    Require LEAs to develop a process to ensure that SES information provided to parents of
        eligible students is communicated in a clear, timely, and effective manner.

DDE Comments:
DDE concurred with our finding and recommendations. DDE updated its webpage to include
sections for parents, providers, and LEAs. The parent section of the web page explains SES in
detail. The web page also includes the approved vendor list, with the service provided and area
served for each vendor, information on the guidance for SES, a sample provider selection form, a
sample vendor contract, and a sample SES letter. In addition, DDE plans to monitor SES
through its Quality Review process. DDE is also developing guidance on helping schools
implement a procedure to address clear, timely and effective SES parental notification. Training
on this guidance is to be provided by January 31, 2006. DDE also plans to continue to work with

                                                9
The State of Delaware’s Compliance with NCLB
Public School Choice and SES Provisions                            Control Number ED -OIG/A03-F0002


state parental advocacy groups to ensure that parents understand the SES legislation, and
procedures, and have knowledge of eligible providers in their area.

OIG Comments:
We reviewed the sample SES letter and found that it is not fully compliant with NCLB
requirements. The SES letter does not include a timeline and procedures that parents are to
follow in selecting a provider. In addition, the letter does not include information on the
qualifications and evidence of the effectiveness for each provider. We recommend that DDE
revise the sample letter to include the timeline and provider selection procedures. DDE should
also ensure that the letter, the approved provider list, or the parental section of the SES webpage
include the information on the qualifications and evidence of effectiveness of each provider.

Finding 4 – Strengthening of Internal Controls Relative to DDE’s USCO Policy for
Persistently Dangerous Schools Determinations is Needed

We found that all three LEAs reviewed had internal control weaknesses relating to the incident
reporting that was used to determine the PDS designation. Officials responsible for incident
reporting were not trained, and we found that all PDS incidents were not reported to DDE. In
addition, DDE failed to incorporate timely data into its PDS determinations and did not have
documented policies and procedures for the PDS process.

School-Level Administrators Were Not Trained

At all of the LEAs reviewed, the school- level administrators responsible for completing the
incident reports used to document reportable incidents of violence did not attend training.
School administrators were responsible for determining whether a student-related incident
qualified as a reportable incident , according to Delaware state law and the state’s USCO policy.
Although the administrators were informed of the state training pertaining to PDS incident
reporting, absences across all three LEAs caused informational gaps relative to the
implementation of the PDS requirements. The SEA should have ensured that the administrators
received appropriate training and technical assistance pertaining to the collection and reporting
of incident data to ensure complete, accurate and reliable data across LEAs in the state.

LEAs Did Not Maintain Adequate Control Over The Reporting of Incidents

We found that the LEAs reviewed did not enforce the incident report review process.
According to LEA and school officials, the schools were required to forward a hard copy of each
incident to a specific LEA representative who was responsible for reviewing the report and
determining whether the incident was considered a reportable offense. LEAs and schools were
not required to maintain the original incident reports. DDE only required that the LEA print and
retain the electronic system data entry form. DDE verified that the data in the system agreed
with the data entry form. Although DDE used this verification process to reconcile the LEA
hard copy incident reports with the state’s electronic records, DDE acknowledged that this
verification was ineffective and required an update. DDE cannot rely on a verification process
that used hardcopies of electronic data entry and system data, as this information is one and the
same, only in different formats. Furthermore, all three LEAs failed to systematically review and
reconcile incidents. Two LEAs (CSD and IRSD) allowed the schools to enter the incident data
directly into the state system, only reviewing the hard copy documentation received from the

                                                 10
The State of Delaware’s Compliance with NCLB
Public School Choice and SES Provisions                           Control Number ED -OIG/A03-F0002


schools . MTA utilized the LEA representative to determine whether an incident was a
reportable offense warranting entry into the state system , however; the representative did not
review all incidents, only those received from the school administrators . Section 1116(c)(1)(A)
of the ESEA requires a state to annually review the progress of each LEA receiving Title I funds
to determine if each LEA is carrying out its responsibilities. The failure of both DDE and the
LEAs to control the incident reporting process may have resulted in insufficient and inaccurate
incident reporting. As a result of the inadequate internal controls, we found five PDS incidents,
at three schools that were not reported to DDE. We also found that DDE lacked written policies
and procedures for PDS reporting.

DDE Did Not Utilize Timely Incident Reporting in the PDS Ratings

DDE failed to utilize the most recent school years incident reporting data in its 2004-2005 PDS
determinations. DDE’s USCO policy stated that the PDS determinations were to be based on
three consecutive years’ data. According to a DDE official, the process of collecting data and
calculating the PDS determination had changed from school year 2003 to 2004 and as a result,
DDE was in the process of updating its methodology with the intent of incorporating the most
recent school year incident reporting data into the PDS calculations.

A DDE official, responsible for the PDS calculations, believed that the PDS determinations were
required by July 1, 2004, and since the school year ends on June 30, 2004, one day did not allow
sufficient time for the calculations. Based on the official’s belief, she assumed that the July 1,
2004 PDS determinations were to be based on the school years’ data from two, three and four
years prior, instead of one, two and three years prior data . In addition, DDE did not have
documented policies and procedures on how to calculate the PDS determinations . As a result,
the PDS determinations for each school, as reported by the state, were not based on the correct
data.

Recommendations:

We recommend that the Assistant Deputy Secretary, Office of Safe and Drug-Free Schools
require DDE to:

4.1	 Develop and implement written policies and procedures for incident reporting, and DDE’s
     PDS determination process.

4.2	 Develop and implement written policies and procedures to ensure that the most recent
     incident reporting data is used in the PDS determinations.

4.3	 Develop a process to ensure that school administrators, responsible for the documentation
     and reporting of school incidents, receive the appropriate training.

4.4	 Monitor the LEA incident reporting process by implementing a process to verify that all
     incidents have been reported, to ensure that the statewide school PDS determinations are
     complete, accurate, and reliable, and that documentation of all incidents is maintained.




                                                11
The State of Delaware’s Compliance with NCLB
Public School Choice and SES Provisions                           Control Number ED -OIG/A03-F0002


DDE Comments:
DDE did not concur with our finding. DDE stated it provided numerous training sessions
throughout the year and that reference resources for daily use are given in hardcopy and
electronic formats and through personal communication. DDE also stated that the process and
procedure for reporting incidents is specific and clearly delineated in state education law and
Department of Education regulation. DDE also stated that the collection instrument is electronic
and completed online thru four different data reporting mechanisms. In addition, DDE stated
that it utilizes the federally submitted and approved PDS definition, process, and procedure for
Delaware identification of PDS.

DDE was unaware that new or realigned administrators in IRSD and CSD were not trained, and
stated that MTA administrators did receive training. DDE acknowledged the need to extend its
technical assistance to the LEAs in an effort to improve the validity and reliability of the USCO
data submitted by the LEAs. DDE further stated that it agrees that effective training and
monitoring at the LEA level and review of reported USCO incidents as contained in
Recommendations 4.1 through 4.4 are important steps towards ensuring that all school conduct
incidents are properly reported. DDE stated that the recommendations involve processes
presently under revision and implementation by DDE, and trust that by working with the Deputy
Under Secretary the recommendations will prove to be helpful as the DDE seeks to refine its
USCO reporting process and strengthening of internal controls relative to DDE’s USCO Policy
for PDS determinations.

OIG Comments:
We do not dispute that training was provided and reference resources are available; however, as
stated in our finding and recognized by DDE, school- level administrators responsible for the
incident reporting at the time of our audit did not attend training. Although DDE stated that
MTA administrators did receive training, our audit disclosed otherwise.

DDE’s comments did not address the issue relating to the review and verification of reported
incidents and the fact that not all reportable incidents were reported to DDE. DDE also did not
address DDE’s lack of written policies and procedures for PDS reporting.

DDE was incorrect in stating that the process and procedure for incident reporting is delineated
in Department of Education regulation. The process and procedure for reporting incidents is not
delineated in Department of Education regulation, but is left to the state.

The U. S. Department of Education does not approve a state’s PDS definition, process or
procedure. DDE’s comments did not address the issue of DDE using the incorrect school years
incident data in its 2004-2005 PDS determinations and did not address DDE’s intended
corrective action(s). DDE’s comments also did not address the fact that DDE did not have
written policies and procedures rela ting to the PDS determination calculations, which is a
significant process that should be documented to assist in ensuring that the correct process is
followed in making the determinations. Nothing in DDE’s response caused us to change our
recommendations.




                                               12
The State of Delaware’s Compliance with NCLB
Public School Choice and SES Provisions                         Control Number ED -OIG/A03-F0002

                          OBJECTIVES, SCOPE AND METHODOLOGY

The audit objectives were to determine whether: (1) the state education agency (SEA) had an
adequate process in place to review local educational agency (LEA) and school compliance with
adequate yearly progress (AYP), school choice, and supplemental educational services (SES)
provisions of the Elementary and Secondary Education Act (ESEA), as amended by the No
Child Left Behind Act (NCLB) of 2001 (P.L.107-110) and the regulations; (2) LEAs provided
to students attending schools identified for improvement (failed AYP two consecutive years) the
option of attending another public school; and (3) LEAs provided SES to students attending
schools that failed to make AYP while identified for improvement during the 2003-2004 school
year.

To achieve our objectives, we reviewed selected provisions of ESEA and the implementing
regulations. We also interviewed officials from DDE, the three LEAs reviewed, school
officials, and officials from the Delaware Auditor of Account’s office. We reviewed documents
provided by DDE, including (1) documents related to compliance with the ESEA provisions
related to AYP, school choice, SES, and the implementation of the USCO policy, (2) the State
of Delaware Single Audit Report, dated June 30, 2003, and (3) the Delaware Auditor of
Accounts’ audit report on DDE’s eSchoolPlus system, for the period February 19, 2004, through
March 31, 2004.

We also reviewed, for compliance with public school choice and SES provisions of the ESEA
and the implementing regulations, three judgmentally selected LEAs from the universe of seven
Delaware LEAs that had schools identified for improvement, corrective action, or restructuring
for the 2004-2005 school year. We judgmentally selected these three LEAs based on total
student enrollment. We selected one large LEA, one medium LEA, and one small LEA. We
defined a large LEA as one with a student enrollment of 10,000 or more, a medium LEA as one
with a student enrollment of 1,000 through 9,999, and a small LEA as one with a student
enrollment of 999 or less. We selected CSD as the large LEA. CSD had four schools that failed
AYP for at least two consecutive years, and one of these schools failed AYP fo r three
consecutive years. The two schools we randomly selected from CSD were Wilson Elementary
and Pulaski Intermediate. We selected IRSD as the medium LEA. We judgmentally selected
two schools in IRSD, one of which failed AYP for two consecutive years (Selbyville Middle
School), and the other failed AYP for three consecutive years (Sussex Central Middle School).
Finally, we selected MTA as the small LEA.

In addition, we reviewed documents from the three selected LEAs. The documentation related to
the LEAs’ compliance with the public school choice and SES provisions of the ESEA and the
implementing regulations, and included (1) school choice and SES parental notification letters
sent by the five schools we reviewed; (2) documentation related to students eligible for and
participating in school choice and SES; (3) documentation related to school choice
transportation expenditures, and (4) persistently dangerous school incident reporting
documentation. Our review of the school choice and SES parental notification letters focused
on selected provisions of ESEA and the implementing regulations.

During the audit, we relied on computer-processed data in the eSchoolPlus system that contained
student enrollment information for public school choice, SES, and reporting of incidents of
violence. To assess the reliability and completeness of the public school choice and SES data,

                                               13
The State of Delaware’s Compliance with NCLB
Public School Choice and SES Provisions                            Control Number ED -OIG/A03-F0002


we compared computer processed data obtained from DDE to lists of data used by the LEAs to
generate public school choice and SES letters, and vice versa. To assess the reliability of
student incident reporting, we compared the computer-processed data with incident forms, and
vice-versa. Based on the work performed, we concluded that the data were sufficiently reliable
for use in meeting the audit objectives.

We performed our audit work at DDE’s administrative offices, and the administrative offices of
the three LEAs reviewed from November 2004 through March 2005. We discussed the results
of our audit with DDE officials on June 3, 2005. We performed our audit in accordance with
generally accepted government auditing standards appropriate to the scope of the review
described above.


                           STATEMENT O N INTERNAL C ONTROLS
As part of our audit, we gained an understanding of DDE’s internal controls for monitoring LEA
compliance with school choice and SES requirements. We also gained a general understanding
of DDE's policies and procedures rela ted to AYP provisions of the ESEA. Though we did not
assess the adequacy of DDE’s internal controls, our compliance testing at the three LEAs we
reviewed disclosed instances of non-compliance that might have been caused, in part, by
weaknesses in DDE’s system of internal controls for monitoring LEA compliance. These
weaknesses are related to DDE’s insufficient review of LEAs to determine whether (1) school
choice and SES parental notification letters included all required information, (2) each LEA
budgeted a sufficient amount of its Title I allocation to meet the federal spending requirement for
school choice, (3) school choice and SES options were implemented, and (4) whether incidents
contributing to the persistently dangerous school determinations were accurately reported and
calculated. These weaknesses are discussed in the AUDIT RESULTS section of this report.




                                                14
The State of Delaware’s Compliance with NCLB
Public School Choice and SES Provisions                             Control Number ED -OIG/A03-F0002



                                               APPENDIX A

DDE PDS Offenses



        Criminal violation; mandatory reports. -­

                    a. A student or a school volunteer has been the victim of:

       1. A violent felony,

       2. An Assault III, or

       3. An Unlawful Sexual Contact III,

    as prohibited by Title 11, which occurred on school property or at a school function;

                    b. A school employee has been the victim of:

       1. A violent felony,

       2. An Assault III,

       3. An Unlawful Sexual Contact III,

       4. An Offensive Touching, or

       5. A Terroristic Threatening,

    as prohibited by Title 11, which occurred on school property or at a school function; or

                    c. A student has been the victim of:

       1. A violent felony;

       2. An assault in the third degree; or

       3. Any sexual offense, as defined in § 761(d) of Title 11,

as prohibited by Title 11, when the school employee has reliable information that would lead a
reasonable person to believe that the crime has been committed by another school employee,
regardless of whether the offense occurred on school property or at a school function,




                                                  15
T

                               DEPARTMENT OF EDUCATION
                                                    TilE TOWNSEI\O BUILDING                                           Valerie A. Woodruff
                                                       401 federal Street SUite 2                                      Sec~tary   or Edllcation
                                                  DOVER. DELAWARE Iml                                                 Voice: (302) 739-4601
                                              DOE WEBSITE: bnp;IIwww.doe.state.de.us                                  FAX: (302) 739-4654




            August 26, 2005



            Bernard E. Tadlcy
            Regional Inspector General for Audit
            U.S. Department of Education
            The Wannamaker Building
            100 Penn Square East, Suite 502
            Philadelphia, PA 19107

                                   Reference: ED-OIG/A03F0002

            Dear Mr. Tadley,

            This letter is in response to yOUf July 29, 2005 draft audit report, "The State of
            Delaware's Compliance with No Child Left Behind Public School Choice and
            Supplemental Educational SelVices Provisions",


            Finding 1 - DOE Should Develop a Process to Adequately Monitor LEA
            Compliance with the ESEA Public School Choice and SIi:S Provisions

            The DDOE concurs with Finding I and the recommendation.

            Recommendation 1.1 (DDOE should) Develop, document, and implement a process
            to monitor LEA compliance with public school choice and SES provisions, including
            budgeting funds for school choice transportation cost.

            As part of the Delaware Educational Support System, the Delaware Department of
            Education (DDOE) annually conducts the Quality Review Process of all LEAs in the
            slate of Delaware. The Quality Review monitors LEAs compl iance with federal and state
            regulations related to accountability and school impro vement , and monitors their usc of
            resources (0 improve academics. It provides feedback and offers technical assistance in
            reconciling the findings. Recently, the process has included the review ofselect districts
            and their procedures for implementing the choice and supplemental educational services
            options, and provided recommendations for improvement where necessary, as well as
            commendations for appropriate practice. The Quality Review Process will be expanded
            to annually review all LEAs that must implement NeLB provisions, and to provide them

                                THE DElAWARE DErARlM~NT OF ED\'"CATIO~ IS AN ~QUAL
EDUCATION INFO LINE:            OPf'ORTINITY B 1PLOY1:R . IT [M)1:S NOT DrSCRIMINAT[ 0'< TIlE llA~IS      or    TEACHE R CERTIFICATIO"l INFO:
                                !lACE, COLOR, KElfQIO"" "",nONAl. ORlOn-l, SEX,     SEX1 1 ~1   ORIF>':HTION.
    (1:177) 1S3~-37~7                                                                                                   (881S) 759-9133
                                M"'RITAl STATUS, Dl~"'lJllITY, Mil OR VIHNAM ERA VHU\,AN'S S r,\lU~
                                IN E\lPLOYMEloIT, OR ITS   ~ROGRA\lS   OR   ~cnVlT1£s.
Mr. Bernard E. Tadley
August 26, 2005
Page 2

with timely feedback on propt..,. implementation, especially with regard to parental
notification. The following corrective actions address this recommendation:

   • 	 In August, 2005 the OOOE notified all LEAs of the status of their schools in
       improvement, and provided guidance with regard to the sanctions (including
       references from both the DE State Administrative Code and the NCLS Act of
       2001), how to implement them properly, and sample parent letters for both cho ice
       and supplemental educationa l services. A sample copy of the lctter and the
       attachments are included as Attachment A.

   • 	 ODOE is current ly reviewing the Quality Review Process to ensure effective
       documentation and monitoring of LEA compliance with public school choice and
       SES provisions. These enhancements will be completed for implementation by
         January I, 2006.

Finding 2: LEAs Did Not Comply \Vitb Scbool C hoice Requirements

The DDOE concurs with Finding 2 and the recommendations.

Recommendation 2. 1: (DDOE should) Develop a process to ensure tbat: 1) LEA
school choice notification letters are updated to include a ll of the required
information listed in Table 1, and 2) all LEAs attempt to provide, to the extent
possible, a school choice option of a sc hool not identified for improvement.

The following corrct.1ive actions address this recommendation:

   • 	 In August of 2005, the DDOE notified all LEAs of the status of their schools in
       improvement, and within the notification, provided explicit guidance (referring
       both to the State Administrative Code and Section 111 6 of NeLS) regarding the
       content of the school choice letters and a sample choice letter to be used as a
       reference. A sample letter with attachments is included in Attachment A. The
       samples are also posted on the DDOE Website under School Improvement.

   • 	 During the 2004-2005 Qua lity Reviews, select districts were monitored for
       compliance with the Choice Requirements. This included the review of parental
       notification documents and interviews with administrators and parents. The
       DDOE provided the select LEAs with their findings and with guidance to make
       corrections where needed as they related to parental notification.

   • 	 Prior to the start of this (2005-2006) school year, DOOE has worked with the
       Marion T. Academy Charter School to ensure that they comply with the choice
       regulations. The school has received tl.'Chnical assistance in developing and
Mr. Bernard E. Tadley
August 26, 2005
Page 3


       administering a Memorandum of Understanding with its neighboring LEAs, and
       also with the development of their choice notific ation letter. The DOOE will
       continue to monitor Marion T. Academy as part of the qualit y Review during the
       2005-2006 school year.

   • 	 The OOOE is currently reviewing the Quality Review Process to ensure that all
       LEAs with schools identified for improvement will be monitored to ensure that
       LEA schoo l choice notification letters include all of the required information, and
       that all LEAs attempt to provide, to the extent possible, a school cho ice option of
       a school not identified for improvement. These enhancements will be co mpleted
       for implementation by January 1, 2006.


Recommendation 2.2: (DOOE should) Require all LEAs to implement a plan to
account for those students enrolling after the initial notification letter distribution
and before thc first day of school

The following correct ive actions address this recommendation:

   • 	 In August of 2005, the OnOE not ified all LEAs of the status of their schools in
       impro vemcnt, and within the notification, provided explicit guidance (referring
       both to the State Administrative Code and section 1116 ofNCLB) regarding the
       content of the school cho ice letters and a sample choice lettcr to bc used as a
       reference. The letter also clarifies their responsibility to provide notification
       between the initial notification and the first day of school. A sample letter with
       attachments is included in Attachment A. The samples are a lso posted on the
       nOE Website under Schoollmprovcmcnt.

   • 	 The nOOE is developing additional gu idance on helping schools implement a
       procedure to address students enro lling after the initial notification let ter
       distribution and the first day of schoo l. Training on this guidance will be
       provided to all district and charter schools by January 31, 2006.

Finding 3: Two LEAs Did Not Comply With Supplemental Educational SCn'icc
Requirements

The nDOE co ncurs with Finding 3 and the recommendations.

Recommendation 3.1: (DDOE should) Develop a process to ensure that the LEA's
SES notification letters are updated to include aU ofthe required information.
Mr. Bernard E. Tadley
August 26, 2005
Page 4

The following eom,,'ctivc actions address this recommendation:

   • 	 In August , 2005 the DDOE notified aU LEAs of the status of their schools in
       improvement, and within the notification provided guidance (including references
       from both 'he DE State Administrative Code and the NClB Act of 2001),
       regarding the content of the Supplemental Educational Services letters, and
       sample parent letter for supplemental educational services. A sample Ictter with
       attachments is included in Attachment A.

   • 	 The DDOE Supplemental Educational Service web page was updated to include
       sections for parents, providers, and districts. It also includes information on the
       guidance for SES and sample letters for districts to sl,'nd to parents
       (www.doc.state.de.us. School Improvement).

   • 	 During the 2004·2005 Quality Reviews, select districts were monitored for
       compliance with the Supplemental Educational Services Requirements. This
       included the review of parental notification documents, and interviews with
       administrators and parents. The DDOE provided the select LEAs with their
       fmdings, and with guidance to make corrections where needed as they related to
       parental notification

   • 	 The DOOE is currently reviewing the Quality Review Process to ensure that all
       LEAs with schools identified for improvement will be monitored to ensure
       Supplemental Educational Service compliancc. These enhancements will be
       completed for implementation by January I ) 2006.

Recommendation 3.2: (DODE sbould) Monitor tbe LEAs to ensure that parents arc
provided a list of all approved SES providers and that parental choices of SES
providers arc granted.

The following corrective actions address this recommendation:

   • 	 In August, 2005 the OOOE notified all LEAs of the status of their schools in
       improvement, and provided guidance with regard to the sanctions (including
       references ITom both the DE State Administrative Code and the NeLB Act of
       2001), how to implement them properly, and sample parent lctters for
       supplemental educational serviccs. A sample letter with attachments is included in
       Attachment A.
   • 	 The OOOE Supplemental Educational Servicc web page section for parents
       explains Supplemental Educational Services in detaiL In addition, the redesigned
       webpage includes the Approved Vendor List (which was a part of the fonner
       webpage). The Approved Vendor list describes the service provided by each
Mr. Bernard E. Tadley
August 26, 2005
PageS

       vendor and the area served. Also, the site gives guidance on questions parent can
       ask about SES, sample provider selection form, and a sample vendor contract.
       (www.doe.statc.de.us. School Improvement).

   • 	 The DDOE is currently reviewing the Quality Review Pro cess to ensure that all
       LEAs with schools identified for improvement will be monitored to ensure LEAs
       provide parents with lists of approved SES providers and that parental choice is
       granted. These enhancements will be completed for implementation by January
       1, 2006.

Recommendation 3.3: (DDOE should) Require LEAs to devclop a process to ensure
that S[S information provided to parents of eligible students is communicated in a
clear, timely. and effective manner

The following corrective actions address this recommendation:

   • 	 In August, 2005 the DDOE notified all LEAs of the status of their schools in
       improvement, and provided guidance with regard to the sanctions (including
       references from both the DE State Administrative Code and the NeLS Act of
       2001), how to implement them properly, and sample parent letters for
       supplemental educational services. A sample letter with the attachment is
       included in Attachment A.
   • 	 During the 2004-2005 Quality Reviews, select districts were monitored for
       cempliance with the Supplemental Educational Services Requirements. This
       included the review of parental notification documents, and interviews with
       administrators and parents. The DDOE provided the select LEAs with their
       findings, and with guidance to make corrections where needed as they related to
       parental notification.
   • 	 Thc DDOE is developing additional guidance on helping sc hools implement a
       procedure to address the clear, timely and effective manner of parent notification
       on SES. Training on this guidance will be provided to all district and charter
       schools by January 31, 2006.
   • 	 The OOOE is currently reviewing the Quality Review Process to ensure that all
       LEAs with schools identified for improvement will be monitored to ensure LEAs
       provide parents with infonnation on SES in a clear, timely and effective manner.
       These enhancements will be completed for implementation by January I, 2006.
   • 	 The DOOE will continue to work with state parental advocacy organi zations such
       as the State Parental Advisory Group, and the Rodel Charitable Foundation's
       Parent School to ensure that parents understand the SES legislation, procedures,
       and have knowledge of eligible providers in their area.
Mr. Bernard E. TadJey
August 26, 2005
Page 6


Finding 4. Strengthening of Internal Controls Relatjve to DOE's USCD Policy
for Persistently Dangerous Schools Determinations is Needed

DDOE does not concur with Finding 4. The following articulates our reasons for
disagreement together with the data to support our position.

School-Level Administrators \Vere Not Trained

DDOE provides numerous trainings for school-level and district-level administrators.
This training is offered throughout the year. The training contains reporting mandates by
Delaware Law, Delaware Department of Education regulations, and federal law.
Reference resources for training and daily use are given via hard copy, electronic version
(email), website, and personal communication.

LEAs Did Not Maintain Adequate Control Over The Reporting of Incidents

DDOE regulation 601 mandates LEAs to follow statc law for school crime reporting to
the police and to the DDOE, Delaware Law T-14 S-4112. In addition to those crimes
mandated by this law, the DDOE regulation 601 mandates other acts of misconduct also
be reported to the DDOE. The process and procedure for reporting is specific and clearly
delineated in statc education law and Department of Education regulation. The data
collection instrument is electronic and completed online thru four different data reporting
mechanisms. Reference resources for training and daily use are given via hard copy,
electronic version (email), website, and personal communication. Training is conducted
in conjunction with administrators, the Departmenl of Justice, law enforcement and the
DDOE.

ODE Did Not Utilize Timely Incident Reporting in the PDS Rating

The DDOE utilizes the federally submitted and approved PDS definition, process, and
procedure for Delaware identification of persistently dangerous schools.

The report makes the following recommendations:

4.1 Develop and implement written policies and procedures for incident reporting,
and DDOE's PDS determination.

4.2 Develop and implement written policies and procedures to ensure that the most
recent incident reporting data is used in the PDS determinations.
Mr. Bernard E. Tadley
August 26, 2005
Page 7

4.3 Develop a process to ensure that school administrators, responsible for the.
documentation and reporting of school incidents, receive the appropriate training.

4.4 Monitor the LEA incident reporting process by implementing a process to verify
that aU incidents have been reported, to ensure that the statewide school PDS
determinations arc complete, accurate, and reliable, and that documentation of all
incidents is maintained.

While the DOOE had not been made aware of the new administrators in the Indian River
School District that had not received appropriate training or the realignment of
administrators in the Christina School District that assumed new positions without
necessary training, the Marion T. Academy Charter School did receive numerous
administrative trainings. Considering these items cited in the Draft Audit Report, the
DDOE has acknowledged the ·need to extend its technical assistance to the LEAs in an
effort to improve the validity and reliability of the useo data submitted by the LEAs.

Furthermore, as evidenced by current policies and procedures in.place, the DDOE agrees
that effective training and monitoring at the LEA level and review of reported useo
incidents as contained in 4.1, 4.2, 4.3, 4.4 are important steps towards ensuring that all
school conduct incidents are properly reported by the LEAs.

Recommendations 4.1, 4.2, 4.3, 4.4 involve processes presently under reVISIon and
implementation by the DDOE. We trust that by working with the Deputy Under Secretary
the above-noted processes will prove to be helpful as the DDOE seeks to refine its useo
reporting process and "strengthening of internal controls relative to DDOE's useo.
Policy for persistently dangerous schools detenninations".

If you have any questions or need further ·infonnation, please contact Martha Brooks at
(302) 739-3772 ormbrooks@doe.k12.de.us.

Sincerely,


Valerie A.
Sec..Tetary of Education

VAW/dcs
Attachment: Attachment A
cc: 	 Lewis Atkinson, Ed.D., Associate Secretary, Adult Education & Workforce Development
      Martha Brooks, Ed.D., Associate Secretary, Curriculum & Instructional Improvement
      Robin Case, Director, Career & Technical Education & School Climate
      Ronald Houston, Director, School Improvement
      Malik Stewart, Education Associate, School Improvement & Quality Assurance




                                   ._------_._ _                ..... _.
